               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Federal Express Air Transportation
             Container Weights

         Management Advisory Report




                                          December 20, 2012

Report Number NO-MA-13-002
                                                                     December 20, 2012

                                                  Federal Express Air Transportation
                                                                  Container Weights

                                                         Report Number NO-MA-13-002



BACKGROUND:
Federal Express (FedEx) transports mail       the containers when negotiating and
by air each year for the U.S. Postal          agreeing to the contract terms.
Service using air containers that hold
letter trays, flat tubs, sacks, and           We were unable to assess the overall
packages. In fiscal year 2011, about          impact on transportation costs since
1.2 billion pounds of mail were flown by      historical data does not exist and
FedEx during the day. Costs to fly this       collecting representative current data
mail are based on contract minimum            was not feasible. However, if the FedEx
volume obligations, with compensation         contract (including any renewals)
based on the total amount of cubic feet       incorporated higher air container
of the air containers transported.            maximum weights for the Postal
                                              Service, where feasible, they could
The FedEx contract with the                   significantly reduce contract
Postal Service also specifies the             transportation costs by using fewer
maximum gross weights allowed for             heavier weight containers and paying for
each air container type. The maximum          less of the unused cubic footage.
gross weight can impact the ability to
utilize the full cubic footage available in   WHAT THE OIG RECOMMENDED:
the air containers. Our objective was to      We recommended the vice president,
assess air container maximum allowable        Supply Management, to the extent
weights on FedEx during the day.              feasible, increase the Postal Service’s
                                              maximum allowable container weights
WHAT THE OIG FOUND:                           when negotiating existing or future air
The FedEx contract restricts the              transportation FedEx contracts with
Postal Service to air container weights       cubic-foot based compensation.
that are less than what the containers
can actually hold and less than what          Link to review the entire report
FedEx advertises to its other customers.
While it may not always be feasible to fill
containers to their maximum allowable
weight, we found that, in some cases,
the restrictions result in less than full
containers being transported on FedEx.
This happened because the Postal
Service agreed to air container weights
below maximum allowable weights of
December 20, 2012

MEMORANDUM FOR:             SUSAN M. BROWNELL
                            VICE PRESIDENT, SUPPLY MANAGEMENT

                                 E-Signed by Robert Batta
                               VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Management Advisory Report – Federal Express Air
                            Transportation Container Weights
                            (Report Number NO-MA-13-002)

This report presents the results of our review of air container weights allotted to the U.S.
Postal Service by Federal Express for air transportation (Project Number
12XG028NL000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    David E. Williams, Jr.
    Cynthia F. Mallonee
    Dwight Young
    Susan A. Witt
    Corporate Audit and Response Management
Federal Express Air Transportation Container Weights                                                              NO-MA-13-002




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Air Container Weight Restrictions.................................................................................... 2

Recommendation ............................................................................................................ 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Opportunities to Increase Air Container Maximum Weights ...................... 11

Appendix C: Management’s Comments ........................................................................ 13
Federal Express Air Transportation Container Weights                                                  NO-MA-13-002




Introduction

This report presents the results of our review of air container weights allotted to the
U.S. Postal Service by Federal Express (FedEx) for air transportation (Project
Number 12XG028NL000). Our objective was to assess air container maximum
allowable weights on the FedEx Day Network. The U.S. Postal Service Office of
Inspector General (OIG) initiated this review, which addresses financial risk. See
Appendix A for additional information about this review.

FedEx transports billions of pounds of mail each year (about 1.2 billion pounds in fiscal
year (FY) 2011) for the Postal Service on its FedEx Day Network using various air
containers or unit load devices (ULDs) that hold individual mail handling units (letter
trays, flat tubs, packages, and sacks). These containers range in size and shape to fit
various aircraft configurations as shown in Figure 1.

                                   Figure 1. FedEx Air Container ULD




              Source: http://satco-inc.com/, 7/16/12.       Source: http://satco-inc.com/, 7/16/12.

The existing contract, which expires September 30, 2013,1 specifies the maximum
gross weight allowed for each air container type. The cost to fly mail on this network is
based on contract minimum volume obligations, with compensation based on the total
number of cubic feet of the air containers (loaded with mail) transported and whether
the footage in these containers is fully used or not. The gross weight limitations on the
various air containers can impact the ability to use all of the cubic footage available in
the air containers.

Conclusion

The FedEx contract restricts the Postal Service to using air container weights that are
less than what the containers can actually hold and less than what FedEx advertises to
its other customers. While it may not be feasible to fill containers to the maximum
allowable weights in many cases, we found that, in some cases, the restrictions result in
FedEx transporting less than full containers. This happened because the Postal Service

1
    Contract number FXNET-2006-01, contract term: July 31, 2006–September 30, 2013.

                                                        1
      Federal Express Air Transportation Container Weights                                                     NO-MA-13-002




      agreed to air container weights well below the industry’s maximum allowable weight for
      the containers when negotiating and agreeing to the contract terms. 2

      We determined that if the FedEx contract (including any renewals) increased maximum
      allowable air container weights for the Postal Service — considering aircraft and other
      operating restrictions3 — they could reduce contract transportation costs by using fewer
      (and heavier weight) containers and paying for less of the unused cubic footage.

      Air Container Weight Restrictions

      The FedEx contract restricts the Postal Service to air container weights that are less
      than what the containers can actually hold and less than what FedEx advertises to other
      customers, using the same containers on the same aircraft types. Table 1 illustrates the
      difference between FedEx contract restrictions and published manufacturer stated
      rates, as well as the maximums advertised to other customers of FedEx.

           Table 1. FedEx Contract, Manufacturer Stated, and FedEx Charter Maximum
            Gross Weight in Pounds 6 for Three of the Most Common Air Containers


                                  FedEx/                                            FedEx
                               Postal Service            Manufacturer-             Charter
                                 Contract                   Stated                Maximum            Difference Between
    Air                          Maximum                  Maximum                   Gross                Contract and
 Container Cubic               Gross Weight              Gross Weight               Weight          Manufacturer/Charter
   Type4    Feet                 (Pounds)                  (Pounds)               (Pounds) 5               (Pounds)
 AMJ        590                    6,950                    15,000                  15,000                   8,050
 SAA        427                    4,890                    13,300                  13,300                   8,410
 AYY        202                    2,415                     6,650                  6,650                    4,235
Source: The numbers in the “FedEx/Postal Service Maximum Gross Weight” column were taken from Exhibit A of the FedEx
Renewal contract with the Postal Service dated September 25, 2006. We took the data in the “Manufacturer-Stated
Maximum Gross Weight (Pounds)” column from the SATCO Inc. website at http://satco-inc.com/satco-products/air-cargo-
containers. SATCO Inc. is the manufacturer of these containers. The data in the ‘FedEx Charter Maximum Gross Weight
(Pounds)’ column were taken from a FedEx associated website.




      2
        According to Postal Service officials, during the original negotiations FedEx indicated that maximum gross weights
      in the Postal Service contract were similar to those used for their own product transported on the FedEx Day and
      Night Networks. They further indicated this was a component of their desired overall density of the aircraft load and fit
      within their weight and balance goals for the aircraft, requiring minimal daily aircraft load planning.
      3
        Operating restrictions include things, such as airport restrictions; and weather at flight origin, en-route, or
      destination.
      4
        AMJ, SAA, and AYY are the air container or ULD names – these are not acronyms.
      5
        The figures were taken from the FedEx associated website address http://charters.fernohost.com/container-guide,
      as of September 12, 2012. By December 2012, we found this website address was no longer active.
      6
        In effect as of September 2012 and widely available on the web, these ‘gross weights’ are the total weight of the
      individual air container (or ULD) and its contents. Aircraft structural limitations and other operating restrictions may
      not allow for all containers on a particular flight to be filled to the manufacturer’s maximum gross weight.

                                                                  2
Federal Express Air Transportation Container Weights                                               NO-MA-13-002



This weight restriction allows FedEx to limit the Postal Service, in most cases, to
36.32 percent of the gross maximum ULD weight for the AYY air container. The
limitation is 36.77 percent for SAA air containers and 46.33 percent for AMJ air
containers. In many cases, the restrictions result in half-full containers being transported
on FedEx (see Figure 2 and red arrows showing the height of the mail).

     Figure 2. Air Containers Partially Filled due to FedEx Limitation on Weight




                      Source: OIG photo taken 3/14/07.       Source: OIG photo taken 3/14/07.

Our analysis showed that, with the exception of a few locations,7 most Postal Service
air transportation origin locations are bound tightly to FedEx contract maximum gross air
container weights. For example, Sacramento, CA has been strictly held to the
6,950 pound maximum for AMJ air containers and the 2,415 pound maximum for AYY
air containers, resulting in not using as much as half of the cubic footage available. The
red arrows in Figure 3 show some examples of unfilled space in air containers.




7
  Postal Service records show air containers significantly above the FedEx contract maximum allowable weights were
regularly accepted and transported on the FedEx Day Network from Des Moines, Reno, Salt Lake City, and Seattle.

                                                         3
Federal Express Air Transportation Container Weights                                                 NO-MA-13-002




             Figure 3. Partially Filled AMJ Air Containers Transported on the
                                      FedEx Day Network




                 Source: OIG photo taken 9/21/06.            Source: OIG photo taken 3/14/07.



Some air container maximum weights specified in the Postal Service’s transportation
contract with FedEx8 are well below manufacturer stated maximum weights and those
advertised to FedEx customers other than the Postal Service. The Postal Service
entered its contract with FedEx in 2001, the terms of which included air container weight
restrictions the Postal Service agreed on. According to Postal Service officials, during
the original negotiations FedEx indicated the maximum gross weights in the Postal
Service contract were similar to those used for their own products transported on the
FedEx Day and Night Networks. They further indicated this was a component of the
desired overall density of the aircraft load and fit within their weight and balance goals
for the aircraft, requiring minimal daily aircraft load planning. This resulted in low
maximum weight restrictions on several widely used air containers. Postal Service
officials asserted that the reason was that FedEx wanted to maintain a certain aircraft
density of payload across all of its jet fleet. We acknowledge that container weight may
impact the overall weight and balance of the aircraft, but manufacturer stated
maximums allow for a higher weight and FedEx advertises higher maximum weights to
its other customers.

We were not able to assess the overall impact on the Postal Service’s transportation
costs as comprehensive historical data does not exist. It was also not practicable to
collect the data.9 However, we believe the Postal Service could derive worthwhile cost
savings if maximum air container weights were increased (as shown in Appendix B),
while still maintaining the requirements of the overall load and balance of the aircraft.
For example, the two AMJ containers illustrated above would generate a payment of
$9,180.40 based on 590 cubic feet for each AMJ at a rate of $7.78 per cubic foot. If the




8
 ULD maximum gross weights are defined in Table A of Exhibit A of the FedEx contract with the Postal Service.
9
 Comprehensive and reliable data in this case would consist of a visual of every air container dispatched from all
78 FedEx Day Network origin airports, 6 days per week, and would require extensive observation of all containers at
all locations to determine cubic footage actually used based on the mail mix on any given day.

                                                         4
Federal Express Air Transportation Container Weights                            NO-MA-13-002



mail were combined into one AMJ container, it would still weigh less than the
manufacturer stated maximum and would only cost the Postal Service about half as
much, or $4,590.20 in transportation costs.

Recommendation

We recommend the vice president, Supply Management:

1. To the extent feasible, considering aircraft limitations and other operating
   restrictions, increase maximum allowable container weights for the Postal Service
   when negotiating FedEx existing or future air transportation contracts with cubic-foot
   based compensation.

Management’s Comments

Management generally agreed with our finding and recommendation. Management
provided information evaluating standard container weights versus average daily
operating container weights, held discussions with FedEx regarding day-to-day
achievable container weights/stowed density, and analyzed Postal Service volumes and
density. Additionally, management stated that the OIG has suggested that the Postal
Service negotiate industry standard [maximum] container weights into future similar
contracts and inferred that the OIG suggested all of the air containers on individual
flights could be loaded to these maximum weights. Management did, however, commit
to negotiate with its suppliers for increased maximum container weights for contracts
with cubic foot-based compensation. See Appendix C for management’s comments in
their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation in the
report. In particular, management’s commitment to negotiate with suppliers for
increased maximum container weights for contracts with cubic foot-based compensation
reflects their responsiveness. However, management’s assertion that the OIG
suggested the negotiation of industry standard maximum weights for all air containers
into future contracts is not correct. While we identified the industry standard maximum
weights, we clearly only suggested a set of increased maximum allowable weights
significantly lower than the industry standard maximum weights by as much as
32.3 percent as shown in Appendix B of the report. Additionally, we stated multiple
times in meetings with management and in the report that it is understood that all air
containers on any individual flight could not be loaded to industry standard maximum
weights due to operating restrictions and aircraft structural limitations. For clarification,
we changed the language in the report to refer to the Postal Service’s maximum
allowable container weights.

The OIG considers this recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when


                                                   5
Federal Express Air Transportation Container Weights                         NO-MA-13-002



corrective actions are completed. The recommendation should not be closed in the
Postal Service's follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




                                                   6
Federal Express Air Transportation Container Weights                                              NO-MA-13-002



                                Appendix A: Additional Information

Background

Postal Service policy requires managers to balance service and cost in transporting
mail, including mail transported by air. FedEx transports millions of pounds of mail in the
air each year on its Night and Day Networks for the Postal Service. In FY 2011, FedEx
transported 78 million pounds of Express Mail, 823 million pounds of Priority Mail, and
329 million pounds of First-Class Mail (FCM) on these networks. The Day Network
carried the bulk of the mail at 1.16 billion pounds. Costs to fly this mail on the FedEx
Day Network are based on contract minimum volume obligations, with compensation
based on the total amount of the air containers’ cubic footage (loaded with mail)
transported whether the cubic footage of these containers is fully utilized or not. This
differs from other existing Postal Service contracts with air carriers that are
compensated based on the pounds of mail transported. The existing contract with
FedEx expires September 30, 2013. The Postal Service may renew the contract or seek
a replacement service.

The air containers FedEx uses to transport mail come in several different sizes and
capacities. The ULDs in Figure 4 are the most frequently used on the FedEx Day
Network.

           Figure 4. FedEx Air Containers: AMJ, SAA, AYY, and AKE ULDs 10




                                 AMJ                                      SAA




                                  AYY                                    AKE



10
  We found pictures of the AMJ, SAA, and AYY on 7/16/12 at http://satco-inc.com and we took the AKE picture on
2/24/09.

                                                        7
Federal Express Air Transportation Container Weights                                                  NO-MA-13-002



FedEx Contract Weight Provisions. The FedEx contract addresses aircraft limitations as
they relate to maximum allowable air container weights. Specifically, Section 4.1.1 of
Exhibit A of the FedEx contract states that:

         “ULDs weighing more than the Maximum Allowable Weight [shown in
         Table A of Exhibit A] may be unloaded by FedEx to comply with the
         structural limitations of the aircraft. Any Handling Units that are unloaded
         for this purpose will be transported in mixed containers and will be
         handled and billed as Handling Units (other than ULDs) in the same
         manner as bulk packages. The average USPS density outbound from any
         market cannot exceed the structural limits of the aircraft. If ULDs must be
         unloaded or removed in order to comply with the structural limitations of
         the aircraft and if the ULDs tendered by USPS are not in excess of the
         Maximum Allowable Weights, FedEx will not adversely discriminate
         against USPS in the unloading or removal of ULDs from the aircraft. In no
         event will any Handling Unit, as a result of this transload, be billed two
         handling charges.”


Objective, Scope, and Methodology

Our objective was to assess air container maximum allowable weights on the FedEx
Day Network. To accomplish our objective, we examined computer-generated data for a
2-year period from April 1, 2010 through March 31, 2012, analyzing mail volume,
operational efficiency, and costs. We did not audit or comprehensively validate the data;
however, the large amount of data, its untimely accessibility, and complex analytical
processes significantly constrained our work. We did not project estimated cost savings
because it was not practicable to collect the data.

To address these data limitations, we applied alternative procedures. We used the Audit
Command Language program to analyze millions of data records for the air containers
transported on the FedEx Day Network for the aforementioned 2-year period to
determine how many, if any, overweight (according to the FedEx contract maximum
weight limits) ULDs were tendered to and transported by FedEx on the Day Network. 11
We discussed the data with Postal Service senior officials, managers, and employees
and validated it based on observations and physical inspections conducted during
previous audits concerning Postal Service operations related to FedEx and the density
of FCM transported by air. We consulted various loadmasters 12 concerning structural
aircraft limitations and placement (load configuration) of air containers in various cargo
aircraft and discussed our initial findings and recommendations with senior Postal
Service management, considered their perspective, and included their comments where

11
   Our scope is limited to U.S. mail being transported on the FedEx Day Network and any possible replacement of
this network.
12
   A specialized position with commercial and military air carriers, this person performs the calculations and plans
cargo and passenger placement to keep the aircraft within permissible center of gravity limits throughout the flight.
Loadmasters ensure that cargo is placed on the aircraft in such a way as to prevent overloading sensitive sections of
the airframe and cargo floor.

                                                          8
Federal Express Air Transportation Container Weights                          NO-MA-13-002



appropriate. We researched applicable manufacturer-stated weight limits, including the
limit FedEx publicly advertises, as available for charter flights and compared them to the
FedEx contract with the Postal Service.

We analyzed historical data and current information related to ULDs transported by
FedEx. We interviewed the appropriate managers at headquarters, obtained
appropriate policies and procedures, and relied on previous audit field visits to
document exceptional activity. We determined that the data were sufficiently reliable for
the purposes of this report.

We conducted this review from August through December 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on September 20, 2012, and included their comments where appropriate.




                                                   9
  Federal Express Air Transportation Container Weights                                                         NO-MA-13-002




  Prior Audit Coverage

                                   Report           Final Report         Monetary Impact
       Report Title               Number                 Date
Air Networks – Federal        NL-AR-10-010            9/29/2010                None
Express Transportation
Agreement – National
Analysis
Report Results:
The report summarized audits covering all Postal Service geographical areas, which
identified three inefficiencies associated with mail transported on FedEx. We found that
Postal Service Headquarters needs to strengthen nationwide processes, guidance, and
monitoring in implementing the FedEx Transportation Agreement to ensure the most
efficient and effective transportation of mail. Prior audits in the eight Postal Service
areas determined the Postal Service incurred unnecessary costs of more than $94
million13 because local officials were improperly transporting surface mail classes on
FedEx, using FedEx instead of lower cost commercial air carriers to transport FCM and
not maximizing the use of by-pass containers to avoid FedEx handling charges.

                                        Report Number                Final Report               Monetary Impact
                                                                         Date                     (in millions)
       Report Title
Density of                             NL-AR-12-003                    3/12/2012                            $267
First-Class Mail on Air
Transportation




Report Results:
The report identified efficiency opportunities related to processing FCM and reducing
the number of letter trays and tubs transported by air. The Postal Service generally
agreed to our audit findings and recommendations with a monetary impact of $267
million. For this audit, the monetary impact related to FedEx was $229 million.




  13
       These reports also identified $420.8 million in funds put to better use in the eight postal areas.

                                                                10
Federal Express Air Transportation Container Weights                                                NO-MA-13-002




          Appendix B: Opportunities to Increase Air Container Maximum Weights

Our analysis of air container weights and density identified opportunities for increased
weight limits for SAA, SAX, AYY, AYX, and AMJ air containers. The existing FedEx
contract maximum air container weights and potential maximum weights are shown
below. The potential maximum weights are in line with the actual weights (in pounds) of
many air containers of mail transported by FedEx in the 2-year period ending
March 31, 2012.



                    EXISTING MAXIMUM ALLOWABLE WEIGHTS                                       POTENTIAL
                                                                                              MAXIMUM
                                                       Approximat         Maximum
          Air            ULD           Cubic Foot         e Tare           Gross          Maximum Gross
       Container      Description       Capacity         Weight            Weight             Weight
                            14
                                                        (pounds)
          SAA         Full Contour         427             575               4,890               9,500
          SAX         Full Contour         418             713               4,890               9,500
                       Hazardous
          AYY             Demi             202              301              2,415               4,500
                          Demi             202              294              2,415               4,500
          AYX          Hazardous
          AVE             LD-3             153              182              3,500            no change
          AKE             LD-3             153              215              3,500            no change
          AMJ             AMJ              590              767              6,950              12,500
     Source: Table A of Exhibit A of the FedEx contract with the Postal Service.       Source: OIG analysis.


In our analysis, we considered what FedEx has carried in the past in terms of air
containers exceeding contract weight limits. We also considered the contractual
maximum weight and density of other air containers carried by FedEx (mainly the
AKE/AVE air containers) as well as aircraft structural limitations.

Finally, we considered the FedEx allowable maximum weight of 3,500 pounds for the
AKE air container and determined the gross density of the containers. We concluded
that the gross density of this container, loaded to 3,500 pounds, would be 22.9 pounds
per cubic foot (3,500 divided by 153 cubic feet). Following the same logic, we
determined that other containers could carry additional weight with similar density.




14
  ULD descriptions are in Table A of Exhibit A of the Postal Service’s contract with FedEx (Contract Number
FXNET-2006-01).

                                                            11
Federal Express Air Transportation Container Weights                                                      NO-MA-13-002




Specifically:

      The potential maximum weight of 9,500 pounds for an SAA container would equal a
       gross density of 22.2 pounds per cubic foot.

      The potential maximum weight of 9,500 pounds for the SAX (the hazardous
       materials version of the SAA) would equal 22.7 pounds per cubic foot.

      The potential maximum weight of 4,500 pounds for the AYY and AYX would equal
       22.3 pounds per cubic foot.

      The potential maximum weight of 12,500 for the AMJ would equal a gross density of
       21.2 pounds per cubic foot.

Filling all of the air containers for any one aircraft/flight to manufacturers’ or the FedEx
Charter’s maximum allowable weight may not be feasible due to aircraft limitations and
other operating restrictions. The average mail mix, in terms of cubic feet displaced, is
about 70 percent Priority Mail 15 and 30 percent FCM; however, it offers an opportunity
to reach the proposed increased potential weight for a few air containers, per day, per
origin. With the cost avoidance for one reduced air container reaching as much as
$4,590,16 this could result in significant annual savings over time and across the
network. We are not proposing or suggesting that more mail be tendered to FedEx, but
that the same relative amount of mail tendered today be tendered to FedEx (or any
other carrier compensated on a cubic footage basis) in fewer air containers.




15
     Priority Mail in FY 2011 only averaged 6.07 pounds per cubic foot on the FedEx Day Network.
16
     As shown earlier in the report for the reduction on one AMJ air container resulting in $4,590.20 in savings.

                                                             12
Federal Express Air Transportation Container Weights           NO-MA-13-002



                           Appendix C: Management’s Comments




                                                   13
Federal Express Air Transportation Container Weights    NO-MA-13-002




                                                   14
Federal Express Air Transportation Container Weights    NO-MA-13-002




                                                   15
Federal Express Air Transportation Container Weights    NO-MA-13-002




                                                   16
